<html>
<title> - ASSESSING THE STATE OF OUR NATION'S BIODEFENSE</title>
<body><pre>[Senate Hearing 114-515]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-515

             ASSESSING THE STATE OF OUR NATION'S BIODEFENSE

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            OCTOBER 28, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
22-381 PDF                    WASHINGTON : 2016                      
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  




COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
             Gabe Sudduth, Senior Professional Staff Member
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
        Robert H. Bradley II, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Benjamin C. Grazda, Hearing Clerk
                           
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator Ernst................................................    16
    Senator Heitkamp.............................................    19
Prepared statements:
    Senator Johnson..............................................    31
    Senator Carper...............................................    33

                                WITNESS
                      Wednesday, October 28, 2015

Hon. Joseph I. Lieberman, Co-Chair, Blue Ribbon Study Panel on 
  Biodefense.....................................................     4
Hon. Thomas J. Ridge, Co-Chair, Blue Ribbon Study Panel on 
  Biodefense.....................................................     7

                     Alphabetical List of Witnesses

Lieberman, Hon. Joseph I.:
    Testimony....................................................     4
    Joint prepared statement.....................................    35
Ridge, Hon. Thomas J.:
    Testimony....................................................     7
    Joint prepared statement.....................................    35

                                APPENDIX

Biodefense Report................................................    41
Responses to post-hearing questions for the Record from Senator 
  Lieberman and Governor Ridge...................................   140

 
             ASSESSING THE STATE OF OUR NATION'S BIODEFENSE

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Ayotte, Ernst, Carper, 
McCaskill, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. This hearing will come to order. I think 
I can speak for everybody on the Committee here. It is just a 
real pleasure to welcome back Senator Lieberman, the former 
Chairman of this Committee, and former Secretary Tom Ridge, two 
patriots, two great Americans who continue to serve their 
country, particularly now on this particular subject, something 
that really should concern all of us: potential biological 
warfare, naturally occurring pathogens, those types of things, 
and what we need to do to defend our Nation against these 
threats.
    Senator Lieberman, I am not sure whether I mentioned this 
last time you were here, but working with our esteemed Ranking 
Member Senator Carper, when I took over the chairmanship, I did 
something that you normally do in business. You start out, 
first of all, on an area of agreement. But we developed a 
mission Statement for the Committee, and it is pretty simple: 
To enhance the economic and national security of America. It is 
something we all agreed on. It kind of helps direct the 
activities of the Committee. And let us face it, if we are 
facing a biological threat, that would threaten both our 
national security and our economic security. And I truly 
appreciate the time you have put into this commission, this 
effort, to the report that I believe you released this morning 
and you are testifying about today, because this is a very 
serious issue. And rather than listen to me yammer on, I am 
going to ask that my opening statement be entered for the 
record.\1\ I just really want to spend more time listening to 
what you have found and what your recommendations really are.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    With that, I will turn it over to Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    I was telling the Chairman, as you all walked in to take 
your seats, that sitting down before us are two of my all-time 
favorite people. Tom Ridge and I were elected to the House of 
Representatives--we are both Vietnam veterans. We were elected 
to the House in 1982, same freshman class, and served together 
there for--I was there for 10 years, he was there for 12--and 
then went on to become Governors. When Joe Lieberman was 
running for President, he was good enough to let me be his 
general campaign manager for President in the Delaware primary, 
and it was this high watermark. And he finished second there, 
seven votes ahead of John Edwards. Hotly contested.
    Senator Lieberman. Seven historic votes. [Laughter.]
    Senator Carper. Yes, they were. And when Tom Ridge was 
running for Governor, I told everybody from Pennsylvania that I 
met in Delaware, I said, ``Do you know Tom Ridge is running for 
Governor up there?'' And they said, ``Yes, I have heard that 
name.'' And I told everybody what a great guy you were. And you 
turned out to be a great Governor.
    Joe was good enough to encourage me as a freshman Senator, 
when I was considering Committee assignments, to consider this 
one, and he said, ``Who knows? You might even end up as the 
Chairman someday.'' And sure enough, I do not think as good as 
the ones who preceded me, but it was a joy serving with both of 
you in those capacities, and it is great to have you before us 
today. We thank you really for your extraordinary service in 
years gone by and your continued service, as the Chairman says, 
to our country.
    In recent years, public officials and academic experts 
alike have sounded the alarm about our ability to deal 
effectively with biological threats. We think about it a lot in 
Delaware. As Senator Lieberman knows, we think a lot about 
avian influenza, and he knows all about chickens in Delaware. 
But since 2000, several commissions, including the 9/11 
Commission, have affirmed the danger that the release of a 
biological agent can pose to all of us. In doing so, they have 
urged us to devote more attention and resources to detecting, 
preventing, and responding to such an incident.
    Our experience with Ebola over the last year in East Africa 
serves as a fresh reminder that biological threats are real. 
Over 11,000 people worldwide lost their lives in that Ebola 
outbreak, and a number of Americans were infected with that 
disease. The spread of this disease, as well as the public 
alarm over that epidemic, demonstrate the importance of having 
the appropriate policies, public engagement plans, and 
resources in place ahead of time.
    It is important to remember, too, that biological threats 
do not just have an adverse effect on our health and our 
homeland security. As the Chairman has said, they can also 
dramatically impact and adversely impact our economy. As some 
of us will recall, just a couple of months ago, parts of our 
country, including parts that we are privileged to represent, 
struggled with an outbreak of highly pathogenic avian flu from 
wild birds going on the flyways and leaving behind their 
droppings and creating great havoc, great loss.
    Though harmless to people so far, the virus devastated some 
parts of the poultry industry, not just chickens, broilers, but 
turkey, egg-laying hens, and the impact on businesses that we 
heard about right here in testimony that was offered in some 
cases very great.
    Further complicating matters, there have also been a number 
of troubling incidents over the past year at Federal and 
nongovernmental labs where research of infectious diseases is 
done.
    The reports of deadly pathogens being mishandled or 
misplaced is concerning to all of us and underscores the need 
for more rigorous oversight both here and in the 
administration.
    And in the midst of these developments, a number of very 
smart people came together and began examining how the Federal 
Government, our Federal Government, in conjunction with State, 
local, and nongovernmental entities, was doing at preventing 
and combating potential biological hazards.
    Since last year, the Blue Ribbon Study Panel on 
Biodefense--led by our two very able friends here--has convened 
a number of public meetings, and consulted with a whole lot of 
experts. And their goal was simple, actually: offer 
recommendations on how to improve our efforts and address 
capability gaps that had previously been overlooked.
    That review, released earlier this morning, I believe, 
contains a number of valuable recommendations that could 
significantly improve our biosecurity efforts. We sure hope so. 
And I urge our administration and I urge all of us in the 
Congress to give these recommendations the attention they 
deserve and then take action.
    I remember when you were our Chairman, you and Susan were 
leading this Committee, we had the 9/11 Commission come before 
us. They had all their recommendations, which I think they 
adopted unanimously, and shared them with us, and my 
recollection is we ended up approving, I do not know, 80, 90 
percent of all of them, and also unanimously. But the idea was 
not just to sit on them but do something with them.
    I look forward to discussing the Panel's findings today. I 
am confident that our witnesses can help Congress identify any 
number of common-sense improvements to our Nation's biodefense 
systems that could be enacted with bipartisan support.
    Again, our thanks to Senator Lieberman and thanks to 
Governor Ridge for being here today to discuss their work and 
that of the team they led. I look forward to a productive 
hearing and knowing that the two of you are going to enjoy this 
as well as we will. And to paraphrase one of our former 
commanders-in-chief, ``Bring it on! "
    Chairman Johnson. Thank you, Senator Carper.
    Well, as Senator Lieberman well knows, it is the tradition 
of this Committee to swear in witnesses, so if you will both 
rise and raise your right hand. Do you swear that the testimony 
you will give before this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you, God?
    Senator Lieberman. I do.
    Governor Ridge. I do.
    Chairman Johnson. Please be seated.

 TESTIMONY OF THE HONORABLE JOSEPH I. LIEBERMAN,\1\ CO-CHAIR, 
             BLUE RIBBON STUDY PANEL ON BIODEFENSE

    Senator Lieberman. Thanks very much, Mr. Chairman and 
Senator Carper. It is really great to be back here. Thank you 
for your warm personal and supportive introductions. And it is 
great to see other Members of the Committee. I spent a lot of 
years in this room, and I look back with a real sense of 
appreciation that I had the opportunity to do so. This was 
really a center of bipartisan activity when it was not 
happening in a lot of other places. I am just impressed and 
appreciative that you have continued the tradition of mixed 
seating here. It was a small step for mankind but a large step 
for Congress. [Laughter.]
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Senator Lieberman appears in 
the Appendix on page 35.
---------------------------------------------------------------------------
    I probably have used that before, but, anyway, this 
Committee has a history of obviously, leadership on homeland 
security but also interest in the biological threat and in 
improving our biodefense. And for that reason, and, of course, 
my own personal history here, I am really grateful that this 
Senate Committee is the first to hold a hearing on our report, 
and I appreciate the interest very much. And, frankly, I hope 
as this goes on that the Committee will decide to be champions 
and advocates for some of the things we recommend as you 
determine your support.
    This commission came together, our Panel came together 
about a year ago. It was a small group of people, but greatly 
supported by the two ladies behind us, Dr. Asha George and Dr. 
Ellen Carlin, who led our staff. The committee was composed of 
Secretary Ridge and me, although I know he likes to be called 
``Governor Ridge,'' prefers that, as all former Governors----
    Senator Carper. My staff had written it down ``Secretary'' 
and I crossed that out.
    Senator Lieberman. I understand. You are forgiven. So great 
to work with Tom Ridge. You could not ask for a more 
constructive, more well-intentioned person to work with.
    The Panel was really bipartisan: Former Secretary of the 
Department of Health and Human Services (HHS) Donna Shalala, 
former Congressman Jim Greenwood; former Senate Majority Leader 
Tom Daschle, of course, who was himself a target in the anthrax 
attacks in 2001; and former Homeland Security Advisor during 
the Bush Administration, Ken Wainstein.
    I am going to just talk for a bit and keep an eye on the 
clock so I do not go too long, first to say the title of the 
hearing is ``Assessing the State of Our Nation's Biodefense,'' 
and I would say that the bottom-line conclusion of this report 
is that we are better defended than we were in 2001 after the 
anthrax attacks, but really the State of our biodefense is 
inadequate, and we are unprepared for the very real biological 
threats we face, both from terrorists and from naturally 
emerging contagious diseases.
    The reality is that we are spending about $6 billion a year 
on biodefense, and, interestingly, that is not a number that 
you can find easily in the Federal budget. We had to go to a 
group at the University of Pittsburgh who did some analysis on 
it because there is no unified budget for biodefense. And we 
concluded that we are not getting our money's worth, and this 
particular area of homeland security really needs another look, 
a review, which we started and obviously we hope Congress will 
continue.
    Is the threat real from infectious disease, an intentional 
bioterror attack? We would say clearly yes. Naturally occurring 
biothreats such as Ebola or avian flu, as was described, are 
bypassing borders to emerge on our shores, and they will 
continue to do so.
    Terrorist groups like the Islamic State of Iraq and the 
Levant (ISIL) are devastating the Middle East, setting new 
horrific standards for inhumanity and brutality, and have 
specifically endorsed--ISIL has specifically endorsed--the use 
of biological weapons and threatened to use them against the 
American homeland. So this is a real threat.
    Are we ready for it? I will go back to the two things that 
I mentioned briefly. Let us talk about Ebola. The response to 
Ebola, in my opinion and most people's, was unacceptable. Ebola 
had been deemed a material threat, designated so by the 
Department of Homeland Security (DHS), for nearly a decade 
before last year's outbreak, which killed I think more than 
6,000 people in Africa. But we did not have a single rapid 
diagnostic vaccine or treatment available.
    The response to Ebola, as you will remember, by our 
government was uncoordinated, to put it mildly, and I found at 
least with people I was talking to that a panic was emerging. 
The public was terrified about Ebola coming here. Even with 10 
months of warning, while the Ebola virus spread overseas, 
Federal agencies did not actually provide hospitals in the 
United States with the basic guidance they would need to manage 
an Ebola case.
    It is quite possible--we do not know--that the next 
outbreak of Ebola or something like it will not give us 10 
months' warning, and the danger is, of course, it will be much 
more communicable.
    The second is avian flu. Senator Carper talked about it, so 
I will just touch on it briefly. But the reality is that almost 
50 million birds, poultry, were euthanized, culled, as a result 
of the avian flu outbreak. And we were lucky that it did not 
cross over to the human population. We have no guarantee that 
it might not the next time we are hit with avian flu. But as 
you said, and it is important to note, the economic 
consequences of that outbreak were severe. I saw one estimate 
that said we actually spent almost $1 billion of taxpayer money 
to respond to it, but also the direct impact on the poultry 
industry, and even on consumer prices, of course, as a result 
of what happened.
    The experts that we heard from on our Panel said that they 
would expect--not all of them, but some that came to us--said 
that they would expect as early as the coming year, wild 
migratory birds will bring back another wave of avian flu. 
Nobody can say for sure whether that will be the same variety. 
The Department of Agriculture (USDA) has a vaccine that they 
are weighing putting out, but we do not know whether the next 
version of avian flu might not only mutate but actually cross 
over to the human population with those consequences.
    And so we are not ready, and our aim was to try to make 
recommendations to suggest how we could be more ready. This 
report--and I give the staff a lot of credit for this--is 
really substantive. In other words, I distinguish it. It is not 
wonkish. It is quite practical. It is very detailed. And I 
think all of us learned a lot in this process. There are 33 
categories of recommendations. There are about 100 action 
items, and I think each of them deserves to be considered. I 
will just give you one example, and then I will make a final 
point.
    One of the things that I learned in my work on this 
Committee which I had not really appreciated enough was the 
interconnection between human and animal pathogens, and of the 
number of the various biological threats listed by the 
Department of Homeland Security, there is only one, as I 
recall, smallpox, that does not begin in an animal population. 
The same is true of infectious diseases. And yet we separate 
these two. We do not think about them together as one. And to 
me and I think members of the Panel, one of the most stunning 
oversights or omissions here is that there is no national 
registry or list of contemporary presence or outbreak of animal 
diseases so that they can be tracked. There is a list by which 
we aim to track human diseases to see if there is an infectious 
disease pandemic taking place, but as I said, these more often 
than not start with animal diseases.
    So one of our recommendations--it happens to be number 7--
is to create such a list and implement a system by which it can 
be conveyed on a real-time basis to relevant public and private 
authorities.
    The final point I wanted to make is that the first 
recommendation may be critical to any hope to see anything 
happen on all the other recommendations because in this area, 
as in so many areas of government, nobody is driving this bus. 
Nobody is leading the effort, coordinating the effort. And as a 
result, there is a tremendous amount of overlap. As I say, we 
do not even actually know in the Federal Government how much we 
are spending every year on biodefense. We need a coordinator, a 
leader.
    We started to think about who should do this. I mean, there 
is an Assistant Secretary at HHS that has wide-ranging 
responsibilities. Should we put that person in charge? But as 
we went on to make a long story short, we thought what if you 
take one department person and put them in charge of everybody 
else, including departments that are equal, at least in size, 
that it is probably not going to work. And then we thought, 
well, maybe we will create a new Assistant National Security 
Adviser or, God forbid, another czar, and everybody said no, 
that will not do it. And we ended up where we did not start, 
which is to recommend, surprisingly, that we should give this 
responsibility to the Vice President of the United States 
because that office has such stature and make sure that--and 
this would have to be done by the President--the Vice President 
have authority to create a Biodefense Council, a Biodefense 
Strategy, and be in charge of a unified biodefense budget.
    So the reason I come back and say that may be the primary 
recommendation, it is not in that sense the most important--
there are a lot of detailed recommendations--because we fear 
that if there is not somebody driving the bus, even if some of 
the other recommendations are adopted, their implementation is 
going to be haphazard and our biosecurity will suffer.
    I will end with what I said at the beginning. I hope that 
some of you on the Committee and the Committee itself will 
think about taking whatever parts of this report seem sensible 
and necessary to you and become leaders in the Senate and 
Congress and seeing it through to implementation.
    Thanks very much for having us here.
    Chairman Johnson. Thank you, Senator Lieberman. By the way, 
if you check the record, I was actually going to introduce you, 
but I guess we did it anyway.
    Senator Lieberman. Oh, I am sorry. OK.
    Chairman Johnson. Not a problem.
    Senator Lieberman. Once I was sworn in, I was ready to go.
    Chairman Johnson. By the way, the other tradition I think 
that we have in addition to kind of mixing up here on the panel 
is I really do think we have maintained the tradition that 
certainly I saw as you being a Chairman of really trying to 
find those areas of agreement, try and concentrate on those 
things that unify us rather than exploit the differences. And, 
again, I think you and Susan Collins did a great job setting 
that example, as did Chairman Carper and Ranking Member Tom 
Coburn. So we have tried to maintain that as much as possible.
    Senator Lieberman. I know you have, and I thank you for 
that, Senator.
    Chairman Johnson. Our next witness is Governor Tom Ridge, 
who also served as Co-Chair of the Blue Ribbon Study Panel on 
Biodefense. He is currently CEO of Ridge Global, an 
international security risk management advisory firm, among 
other private sector roles. Before 9/11, he served as the 
Governor of Pennsylvania for 6 years. After 9/11, he was 
appointed the First Assistant to the President for Homeland 
Security and in 2003 the first Secretary of Homeland Security. 
Governor Ridge.

 TESTIMONY OF THE HONORABLE THOMAS J. RIDGE,\1\ CO-CHAIR, BLUE 
                RIBBON STUDY PANEL ON BIODEFENSE

    Governor Ridge. Thank you, Mr. Chairman, Senator Carper, 
ladies and gentlemen. First of all, I want to thank you for the 
invitation to participate in today's hearing. I was thinking 
about those kind comments you made about Senator Lieberman and 
Senator Collins, and I would just put an exclamation point 
behind them, because I had many appearances on the Hill through 
multiple committees, given the fact there are 108 committees 
and subcommittees that the Secretary of Homeland Security has 
to report to. And I must tell you that the bipartisan nature of 
this Committee and the very constructive way that both R's and 
D's looked to provide challenges, of course, but counsel to the 
Department it is embedded in my mind as the way government and 
politics ought to intersect, so I want to thank you for 
maintaining that. And it is great to be with Senator Lieberman. 
I have great admiration for his record of service, and when we 
talk with our colleagues and you take a look at the four men 
and women who constituted this Panel and take a look at the ex 
officio members and then take a look at the capable staff 
directed by the two extraordinary professionals seated behind 
us, we said we did not need one more report, because since 2001 
there have been four different studies and commissions that 
have dealt, in part or in whole, with weapons of mass 
destruction (WMD) and bioweapons and problems. And yet in spite 
of these well-intentioned efforts and some thoughtfulness 
approaching this issue, not much has changed during the past 14 
years. And we all agreed that we are not only going to complete 
a report, but we are going to make some very specific 
recommendations and then go beyond recommendations, even 
include action items to implement those recommendations. So I 
am not going to spend a great deal of time reviewing them. I do 
encourage everyone, however, it is about as thoughtful, as 
probative, and as important a report on the nature of the 
biothreat that I think this Congress has ever seen. And we are 
looking for champions. We are looking for bipartisan champions. 
It is a national problem. It requires a solution set that is 
bipartisan in nature.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Governor Ridge appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    By the way, I understand that you passed the Cybersecurity 
Information Sharing Act (CISA) today. Is that right? Senator, 
did you tell me that? That is something I have been working on 
for 4 years as well. So from the cyber side, I want to thank 
you for the bipartisan support. Things get done here, and they 
are even more effective when they are bipartisan, and that is 
what we are looking for, bipartisan champions here.
    So let me make a few observations and then we will open it 
up to questions, if you would like.
    The recommendations contained in this report go far beyond 
Homeland Security Presidential Directive No. 10, which is the 
cornerstone, which is really the foundation around which we 
built our report, but there is so much more to it than that. 
Together, our recommendations address the broad spectrum of 
biodefense activities: prevention, deterrence, preparedness, 
detection, response, attribution, recovery, and mitigation. It 
is a wide range of issues that need simultaneous attention. 
They are not really one-off. One thing you will see in this 
report is many of the recommendations and the action items are 
interconnected because it is about building an architecture, a 
system of oversight and integration not only of Federal 
capabilities but State and local, academic, private sector, and 
the like to deal with the threat.
    One of the reasons we all joined this Panel was we felt 
very strongly that this threat has not been given attention. It 
has not been part of the national conversation with regard to 
threats to America's national security and to our economic 
prosperity, and we all know that whether the pathogen is thrown 
at us by a terrorist or a nation State. By the way, the global 
community, including Iran, North Korea, Syria, Russia, and 
China, maintain dual capacities, both offensive and defensive 
weapons, and as the Senator pointed out, it is pretty clear 
that terrorists have not only talked about it, but they have 
access to computers. We better start worrying about them 
hacking into intellectual property and developing the 
capabilities to genetically modify some of the stuff that is 
out there, and then Mother Nature. We know from the Ebola 
crisis Mother Nature is always lurking around the corner, and 
what really frustrated many of us was when I--and particularly 
yours truly. I will speak just for myself. When I became 
Secretary. When I was the Assistant to the President in the 
White House within the first couple weeks, I got a long list of 
pathogens that everybody was worried about. This is 2001. One 
of those was Ebola.
    Now, one would have thought if somebody in the Federal 
Government considered Ebola to be a potential problem, then by 
2014 or 2015, we would have had an antidote and a vaccine ready 
for it, because as we all know, pathogens neither know politics 
nor boundaries. And given the geopolitical nature and given the 
forces of globalization, what happens over there now happens 
here.
    So it was a part of the scenario, and everybody did the 
best they could in response to that. But one would have 
thought, given its identification over a decade previously, we 
would have been better prepared to deal with it, because it 
then was a high priority.
    So that is what we tried to do. We address in our 
recommendations programs and policies, and we set them out 
short term, mid-term, long term. We want to make perfectly 
clear, at least according to this Panel--and we talked to a lot 
of experts, had hearings outside of Washington. We want to make 
it perfectly clear who should execute each item. We like the 
notion of responsibility and then accountability. We like that. 
Exactly what they should do, we make very specific 
recommendations, action items, and the timeframe we think it 
needs to be done. This is actionable information, and we think 
it is pretty important that many of these initiatives be 
undertaken simultaneously rather than one-off.
    I would like to share with you a couple thoughts about the 
central piece of this, and then we will get into the question-
and-answer period.
    We strongly recommend and strongly believe that the only 
person in the national government, in the Federal Government 
that has the capacity and, frankly, the political and financial 
muscle to move and build an integrated architecture to deal 
with the biothreat is the Vice President of the United States. 
We know there have been czars in the past. Often government 
responds after the incident. Remember, we are talking about 
prevention and intelligence and readiness and all those things. 
So the czar has been there. I will speak from my own experience 
as Assistant to the President. The office next to the 
President, I used the Roosevelt Room, but Assistants to the 
President still cannot move money around. You can make 
recommendations, but you do not, frankly, have as much clout on 
the Hill. You know this. I am preaching to the choir. And then 
all of a sudden you become a Secretary, and then you find out--
and this is not a criticism, but there is still a lot of turf 
in this town, has been, always will be. That is how we operate. 
I understand that completely. So whether you are a czar or an 
Assistant to the President, certainly an Assistant Secretary of 
HHS for Preparedness and Response does not have the cachet, 
even individual Secretaries. And this challenge, we felt, since 
it cuts across multiple agencies and is of the highest 
importance, we think we need to elevate our attention and 
rebuild that architecture. The President is pretty busy, and 
the Vice President certainly will have their share of 
responsibilities. But there was one person we thought could cut 
through it.
    So in addition to the recommendations that we have here, we 
need to explain to you why we thought the Vice President should 
be in charge. That is one. It is cross-cutting. I believe 
Secretaries will pay attention to the Vice President because 
that office, that individual is speaking for the President.
    We also think that that is the place--and we are going to 
ask Congress in the future to appropriate money for the 
Biodefense Coordination Council that will be in the Vice 
President's Office, and this is going to be an integrated set 
of capable people, government and nongovernment, public, 
private, and academic research institutions. We do not have a 
national strategy, ladies and gentlemen. This is a real threat. 
We cannot get ahead of this threat because it already exists. 
So let us accept the reality it exists. And we have to do 
everything we can to reduce our risk of not only exposure but 
also to be a lot better prepared because we know we cannot 
develop a fail-safe system in order to immunize ourselves 
permanently. So we have to do that.
    So we need a national strategy. Who better to oversee that 
than the Vice President with the right group of people around 
him?
    We need a unified budget. I can speak, as I tried to do as 
the Secretary--I know I wanted what the Department needed, and 
everybody else. And we had some cross-cutting jurisdictions, 
and another Secretary wanted to do what he or she wanted. But 
at the end of the day, we need somebody in the White House 
working with the Office of Management and Budget (OMB) to make 
sure that the unified budget reflects not the Cabinet 
department or the agency or the institution's preferences, but 
what is in the best interest in supporting an overall 
biodefense architecture and plan. So you need the strategy. You 
need the unified budget. And then obviously we give you 
recommendations with regard to how we think the action items, 
frankly, would follow on these recommendations in order to 
build out that architecture.
    And why do we do all that? Because if you take a look in 
the back of this, there are 25 pieces of legislation, Executive 
Orders (EO)--25 pieces of legislation or Executive Orders or 
treaties that deal with biodefense. You probably cannot name 
them all. We could not either, thank you, but our staff pointed 
them out. There are 50 political appointees in the Federal 
Government all having some responsibility of biodefense.
    Look at Appendix A, and this is something near and dear to 
my heart. There are four pages of congressional committees and 
subcommittees that have disparate jurisdictions over bits and 
pieces. So we are basically saying that, in addition to the 
really substantive recommendations we made, there are three of 
them--the first two will drive what we think will create a 
sense of urgency. We do not want to be reckless about it. A lot 
of these things are going to take account years to embed into 
our architecture. But it is serious enough, the Vice President 
ought to oversee it. The Cabinet Secretaries pay attention to 
the Vice President and the President of the United States. And 
we can move this along to where we do not create a fail-safe 
system, but we create a far better system than exists today. I 
think the American public--and I am not going to speak for the 
American public, but I just know in my conversations with a lot 
of people, Ebola concerned a few. Then you explain to them how 
responsibility--there is nobody responsible ultimately. There 
is no ultimate accountability in the system for biodefense. And 
so we give that responsibility and accountability to the Vice 
President, and we are quite confident that that individual with 
bipartisan support in the House and the Senate can get these 
things done.
    So we are grateful for the opportunity to share these 
thoughts with you, and hopefully we have convinced you enough 
in this Committee that has broad jurisdiction that we will find 
a couple champions in here to help us with these short-, 
medium-, and long-term recommendations and see that they become 
part of the biodefense architecture we have in this country. 
And we thank you very much.
    Chairman Johnson. Thank you, Governor.
    It seems you are both recommending the Vice President. It 
just begs the question. Have either of you or have both of you 
spoken with Vice President Biden, by any chance, to just get 
his thoughts and input in terms of having a Vice President, 
whether it is him or his successor? Again, did you speak with 
him?
    Senator Lieberman. Not yet. I notified Steve Ricchetti, who 
is his chief of staff, that the report would make this 
recommendation, and we sent a copy over yesterday afternoon so 
they would have some advance notice on it. So I have no idea--
--
    Chairman Johnson. So no reaction out of that?
    Senator Lieberman. No.
    Chairman Johnson. Can you just talk about exactly how you 
think this unified budget would work? Would you recommend 
taking out the funding from the different agencies, the 
different departments, unify it in, for example, the budget of 
the Executive Office, allocate it to the Vice President, and 
then he would reallocate it back to those different departments 
and agencies? I mean, how would you see that working?
    Senator Lieberman. So I am going to give a legislator's 
response and then yield to the former Cabinet member. The truth 
is we did not dig down on that. Your expression of, your 
implementation of, our idea makes sense. That is one way to do 
it. I mean, the main point, the main thing is to have somebody 
who knows really the totality of what is being spent on this 
important area of biodefense and then can make judgments about 
what is working and what is not and move money around within 
the budget, or I suppose if the Vice President thinks so, ask 
for more money.
    But we think that what we are recommending can be done 
pretty much within the existing dollars, as we see them. 
Governor.
    Governor Ridge. I think it is a wonderful question. I am 
particularly interested in promoting the Vice President because 
of my experience with Vice President Cheney. We do not have a 
Nuclear Detection Office unless he got involved in the 
conversation in the White House and he advocated on the Hill 
some of the initiatives around biodefense, BioShield and the 
like. His staff was critically important in design and 
affecting. So I really think with the appropriate support, it 
is an office that can really make a huge difference.
    I guess in the world understanding and appreciating the 
process, a Cabinet--first of all, the Cabinet members, they 
project a budget based on what they view to be the 
institutional needs and what they want to do. I got that. I did 
it. Cabinet Secretaries do that.
    But then I see the Vice President taking a look at the line 
items from HHS and Agriculture and DHS and the Department of 
Defense (DOD) and the rest of them, mapping what they want as 
opposed to the national strategy and see how those requests for 
dollars line up with the national strategy. And I suspect there 
will be some inconsistencies, and so I would like to see the 
inconsistencies resolved in the President's budget that he 
submits to Congress. There will be turf battles and financial 
battles, but you do not get things done in this town unless you 
control the purse strings. I just think having somebody who 
works so closely with the President and OMB, I think he could 
probably shuffle some money around in a way that may annoy or 
aggravate a Secretary or two or an agency or two, but, again, 
it is not about them. It is about the broader mission of 
building an architecture and a response capability to bio.
    So I think it would work very well. You do not have to go 
outside the existing budget process. I think you let the 
Secretaries do what they do, and then you let the Vice 
President realign, consistent with that overall national 
strategy, which is probably going to take another year or two 
to develop, I understand that. But I think it is appropriately 
placed within that office.
    Chairman Johnson. I am sure Senator Lieberman, when he was 
Chairman of this Committee, valued the GAO as much as we do. 
And certainly we have seen study after study of duplicated 
programs in the Federal Government, so your recommendation, 
again, as I was reading my embargoed copy, that does seem to be 
the strongest recommendation about that unified organization, 
that unified leadership. And from my standpoint, I think you 
make a strong argument. If anything, it would save you money 
because you eliminate a lot of that duplicated effort, so you 
have more money to actually effectively utilize to fight the 
threats.
    One thing I was mindful of as I was going through that my 
embargoed copy was the number of hearings you were suggesting, 
and I just did my own little mental calculation. I think it was 
11 out of 15. It suggested that the Homeland Security and 
Governmental Affairs Committee hold those hearings. With that 
Vice President in charge, what department do you think would be 
pretty much the go-to department? I mean, I realize there is a 
lot of authority spread all over the place, but just based on 
kind of the hearing schedule, it seems like the Department of 
Homeland Security would be pretty key, although in your 
testimony you were talking about HHS. Can you give me some sort 
of sense in terms of, even within a department, where an awful 
lot of your recommendations are going to reside?
    Governor Ridge. Well, I do not think we can possibly--a lot 
of it has to do with what they decide is the national strategy. 
I think there are three or four that could have a dominant 
position to play. Our warfighters keep looking at this. They 
want to be able to detect on the battlefield and respond and 
recover. Because of our concern and connection with the 
zoonotic transfer from animals, Ag has to have a significant 
role in here, and DHS. So I am not necessarily sure there has 
to be an epicenter of one department. I do think, however, 
there has to be more than rhetorical coordination. There 
actually has to be real coordination, which means that the 
programs really should not be redundant, but they ought to be 
actually integrated. And so I am not prepared to say that one 
department or another, because I think you could see three or 
four critical departments. And, again, that leads us back to 
the Vice President.
    Chairman Johnson. You have to have that top----
    Governor Ridge. So, I mean, listen, I know all about turf 
fights within the executive branch. It happens all the time.
    Senator Lieberman. So, to a certain extent, probably the 
wrong way to describe it, we backed into the recommendation 
that the Vice President be the leader of this effort, because 
every 
time--even the natural department, if you were going to choose 
a department to lead it, would be the Department of Homeland 
Security, because this biodefense is an element of homeland 
security. But then Homeland Security has to start saying to 
somebody at HHS or the Department of Agriculture, ``This 
program of yours is not working. There is too much money in it. 
We have to pull money out and put it into BioWatch in the 
DHS.'' That puts DHS in a hard position and why we thought it 
had to be elevated, as Governor Ridge said, to the Vice 
Presidency.
    Chairman Johnson. OK. Just real quick, with the few seconds 
I have remaining, you mentioned Ebola. Did your Panel take a 
look at how far we have progressed in terms of a potential 
vaccine? I have asked this of others as well. But what is your 
input on that, the progress made?
    Senator Lieberman. Well, we understand that there is a 
vaccine coming along, but I am actually thinking more about---
yes, OK. So the vaccine is coming along, but it has not been 
approved yet. And the sooner the better.
    Governor Ridge. And it is 14 years after the Federal 
Government said this is a potential problem.
    Chairman Johnson. Senator Carper.
    Senator Carper. Thanks. Thanks so much. I want to go back 
to mention something that is not part of biosecurity, but 
something that both of you played a real big role in, and that 
is, the work that we accomplished yesterday in the Senate on 
information sharing, cybersecurity information sharing. And I 
remember well when Joe Lieberman was leading this Committee the 
efforts that you and Dianne Feinstein, and myself and others 
helped, but I wish you could have been here with us yesterday 
when it all came to fruition, and you laid the groundwork. And 
Governor Ridge was part of--actually, I think sort of the face 
for the U.S. Chamber of Commerce for supporting the efforts, 
and we are just grateful to each of you for your contribution. 
I said yesterday it was one of my happiest days in my 15 years 
in the Senate, and you all played a big role in getting us on 
the right path, so thanks.
    Senator Lieberman. Thanks, Senator Carper, and thank you 
for your leadership on this. I probably would have been happier 
if I was on the floor with you yesterday, but I was pretty 
happy following it. It is a really significant accomplishment.
    Incidentally, I just quickly related there is a lot of 
connection of cybersecurity to biosecurity, and in the most 
direct way here, if you have a company dealing with pathogens 
or even vaccines, let us say, preventive activity, and they are 
hacked, right now they are probably going to be nervous about 
calling the government because they are going to reveal things 
that could subject them to liability. Well, when this 
legislation is law, that is open.
    And, of course, what that means from the government point 
of view is that you can begin to notice patterns of what is 
being hacked and wonder about where it is coming from and find 
out where it is coming from.
    So the implications, it is a really substantial 
accomplishment, and I really congratulate all of you on it.
    Senator Carper. Thank you. I asked my staff to help me 
reach out to the Vice President later this week, and guess what 
we are going to talk about? We are going to talk about this.
    Senator Lieberman. Great.
    Senator Carper. And I would ask you to do a little bit of 
role playing here with us for a minute and just anticipate for 
us that conversation when we talk to the Vice President----
    Governor Ridge. You came to it a lot closer than I did, so 
you can play the role. [Laughter.]
    Senator Carper. Anticipate what the Vice President is going 
to say, and then what should we say to try to convince him to 
take this on?
    Senator Lieberman. Well, so this is a very personal 
reaction. I would say this Vice President, Joe Biden, might 
be--I hope--sort of intrigued by this because, this is 
specific.
    Senator Carper. Maybe if I mention avian influenza right at 
the top. All politics is local.
    Senator Lieberman. Make it close to home. But let us say it 
is a Vice President--and, incidentally, to be clear, we did 
some legal research on this. We decided it is the better part 
of wisdom here and probably law that the Congress cannot 
mandate that the Vice President take on this responsibility. 
This is really an appeal to the President to designate the Vice 
President to do this.
    I think that Vice President Biden might be challenged and 
intrigued by this possibility and want to see if in his last 
year in office he can bring this together to work better.
    I suppose if you had a virtual Vice President, he might say 
or she might say, ``Why are you giving me this responsibility? 
This is the beginning of your going to make me into the new 
Super Czar?'' Obviously, that is up to the President, and the 
President has priorities. But as a choice between creating a 
new czar and making the Vice President of the United States now 
and in the future responsible for some critical areas, 
coordinating them, I would choose the Vice President.
    Senator Carper. Good. Governor, do you want to add anything 
to that?
    Governor Ridge. Just I like the word that the Senator used: 
``intrigued.'' The architecture that we are talking about 
requires a lot of engagement at the Federal level and State and 
local levels. That means obviously the Vice President will have 
some pretty good political connections, having obviously 
prevailed in a national election. And that integration of those 
government capabilities and the ability to move among the 
Cabinet agencies and also to engage, to build. I would like to 
think that any Vice President would welcome the opportunity to 
build, not unilaterally but with everybody else, to build a 
platform to deal with a real substantive threat to the national 
security and economic security of this country and would take 
it on obviously as a cause celebre--not that he does not have 
other things to do, but give that individual, who obviously is 
interested in both politics and governing, the opportunity, now 
that they have won the competitive side in politics, a chance 
to really do some substantive work on the governing side. And I 
think that would certainly appeal, I think, to most.
    Senator Carper. OK. Thanks.
    What do you see is the most likely form that a biological 
threat would take? And a related followup: In your opinions, 
have the risks associated with biological materials increased 
over time? And why?
    Senator Lieberman. Well, I will start, Senator Carper. On 
page 1 of this report, we have a scenario, which we made up, 
fortunately, but we think it is plausible, of the opening 
statement of the chairman of a congressional investigation that 
begins 9 weeks after terrorists unleash a biological attack on 
our Nation's capital. And there it was a multifaceted--in this 
scenario, which is plausible, it was a multifaceted attack that 
began with aerosol sprays and also, unfortunately, was 
comprised of essentially poisoning or infecting of animal 
populations with diseases that would be communicated to people.
    So, I mean, the problem here is, as Tom said in his opening 
statement, that some big powers have this capacity, dual-use 
capacity. It is certainly not as complicated as building a 
nuclear weapon--to build the capacity to carry out a biological 
attack. And, of course, it is easier either to get into the 
country, sneak it into the country, or to build it here.
    So I would say that the threat of a bioterrorist attack is 
greater than it has been, and I would also say, without 
belaboring the point, that the threat from a naturally 
occurring biological attack, which is to say an infectious 
disease pandemic, is greater, just to state it summarily, 
because we are all traveling more, we are moving around the 
world, and we are bringing disease along with us. And it is 
amazing. A word that I came to appreciate a lot during our 
study was ``zoonotic.'' I do not know if I knew that word 
before, but this is a disease that is conveyed from animals to 
people, particularly by migratory bird populations. It is 
really quite threatening. And I guess the birds are traveling 
as much or more than they ever have, too, so that threat is 
greater than ever.
    Governor Ridge. Senator, I do not think we can discount, 
given the nature of the world today, some of these pathogens, 
either, leaving the laboratories of the Nation State and 
particularly ending up in the hands of terrorist organizations. 
Holding them precisely accountable for their actions is pretty 
difficult, attributing and then holding them accountable. So I 
think we cannot underestimate that possibility.
    I happen to believe that the science has changed 
dramatically, and we also know that in recent history you had 
scientists in certain parts of the world with minimal 
capacities, but with the advance of technology, are able to do 
some rather--to manipulate matters and create problems that are 
presently perhaps unforeseen.
    It is very interesting. I do encourage, if Congress does 
not read the entire blueprint, they ought to read the two-page 
scenario that we tried to set up as a plausible scenario. It is 
the Nipah virus. It is in pigs. It is in Southeast Asia. And it 
would not take too much to genetically engineer it, and once it 
is in the system--and it was interesting that those called 
before the Governmental Affairs Committee 9 weeks after it 
happens are the Governors of the four States that got hit. The 
second panel was the Secretary of State, Secretary of Defense 
(SECDEF), the Attorney General (AG), and the Director of 
National Intelligence (DNI). And the third is the Secretary of 
Ag, Secretary of Health and Human Services, and the Secretary 
of Homeland Security. That shows you the totality of the groups 
and people interested in this and one more reason why we hope 
the President would encourage the Vice President to take the 
task on.
    So we should take the words of the 9/11 Commission. One 
observation they made I think is relevant to this discussion. 
They concluded the Federal Government suffered pre-9/11 from 
``the failure of imagination.'' It does not take much to 
imagine the pathogen finding its way to a terrorist 
organization, and we know Mother Nature--I mean, Mother Nature 
keeps playing around with H1N1 every year. And, by the way, let 
us think about that. Two years ago, we were advised that it 
would be potentially a more virulent strain of H1N1. Remember 
we had notice? And remember we did not have the vaccines ready 
for it? That is just Mother Nature.
    So a lot of work needs to be done. A lot of good people for 
the past 15 years have put their best foot forward, but they 
are not marching in unison. Senator Lieberman and I kind of 
look at as you get all these good people out there in 
organizations, they are like in the orchestra, but their sheet 
music is all different, and they have no conductor. Well, we 
want everybody playing off the same sheet of music, and we want 
the Vice President to conduct the song.
    Senator Carper. Thank you.
    Chairman Johnson. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for being here this afternoon. 
This is a really fascinating topic and one that we really do 
need to pay attention to.
    Now, your Panel also made a recommendation to implement 
military-civilian collaboration for biodefense, and I sit on 
both the Armed Services Committee and on this Committee of 
Homeland Security, and as a veteran, I would really be 
interested to learn more about this particular recommendation 
and the level of military and civilian collaboration that you 
have seen in the past, where we really need to take that for 
the future, and what we can do better in those areas. Senator 
Lieberman, if you would start, please?
    Senator Lieberman. Thanks very much, Senator Ernst. So here 
is an example. You will see in our report that we are critical 
of the so-called BioWatch program which the Department of 
Homeland Security operates, which was supposed to be an early 
detection system for biological pathogens in the air. Our 
judgment is that it is an old system, it is using old 
technology, and, frankly, it is not up to the challenge. It is 
not doing the job.
    At the same time, we found that the U.S. military is doing 
some aggressive, cutting-edge work on detecting biological 
pathogens in the air with the first natural priority being, 
concern being, to protect the men and women of the U.S. 
military either in conflict or in areas where they may be 
subject to biological attack. And the military is way ahead, in 
our opinion, of what the Department of Homeland Security has in 
the BioWatch program.
    So there is a case where we think that we are wasting money 
on BioWatch, to put it bluntly, and that this seems like a 
natural collaboration if we could take some of the breakthrough 
technologies that are being developed in the Department of 
Defense and allow them through collaboration to be applied to 
the domestic challenge.
    Tom, do you want to comment?
    Governor Ridge. Senator, I understand next year will be 
your 26th in your service?
    Senator Ernst. 24.
    Governor Ridge. 24? Well, thank you very much.
    Senator Lieberman. You must have been very young when you 
went----
    Senator Ernst. I was maybe 12. [Laughter.]
    Senator Lieberman. That is what I would have guessed.
    Senator Ernst. Thank you. You are very kind.
    Governor Ridge. Your record of public service obviously 
precedes it here, so I thank you for that, one soldier to 
another.
    A couple thoughts, if I might. I think Senator Lieberman 
highlighted it quite well. We know the DOD--we do everything we 
can to protect our warfighters, and their investment in their 
Defense Advanced Research Program with regard to early 
detection on the battlefield I am quite confident has led to 
discoveries or learning relative to medical countermeasures. So 
somehow the biological contaminant gets past the protective 
gear, I mean, just even protective gear alone. So you see 
technology, you see protective gear, you see probably the 
advance of medical countermeasures.
    I remember as Governor of Pennsylvania and then as 
Secretary, we witnessed some exercises where the National Guard 
in respective States had WMD response and recovery capability. 
There is learning there, as well as capacity to help the State 
and locals respond if there is an event. And so I think while 
they may be--I think they are at--the epicenter of a lot of 
this work, and one of the frustrations that I think we have had 
in the Federal Government is that a lot of this work is always 
siloed. And, if it has an application at DOD, maybe the form 
may change a little bit, but it ought to be at DHS, it ought to 
be in the civilian world.
    So I think there is a lot of learning in the area of 
technology, protective gear, response and recovery capability, 
medical countermeasures, getting DOD integrating some of its 
learning with not only Federal agencies but with the State and 
locals will just enhance their capability.
    Senator Ernst. Well, and, Governor, you led to my next 
question as well. With the siloing effect that we have in so 
many of our agencies across the Federal Government, how does 
the Federal Government do a better job at working with our 
State and local officials? You mentioned the National Guard. 
Every State has a civil support team that deals with nuclear, 
biological, radiological episodes and can respond. And they are 
at the cutting edge. How do we take some of that knowledge and 
share it with those local emergency management coordinators at 
the county? We have to do a better job at that. And do you see 
that there are ways that we can break out of those silos and 
really effectively communicate across those various levels of 
coordination and effort?
    Governor Ridge. Well, first of all, I think they have to 
have a significant presence on the Biodefense Coordination 
Council because they are every bit as important to delivering 
particularly the response and recovery, although they do need 
intelligence and you need to bolster the public health 
capability clearly. They need to be invited in to participate 
and viewed not as an adjunct to what the Federal Government is 
doing but as a partner. I do not believe that the Federal 
Government--we cannot secure the country from bioweapons and 
pathogens inside the Beltway. And as we all know, the first 
responders are back home at the local level, then the State 
level. They are the first in and the last out.
    Senator Ernst. Right.
    Governor Ridge. And I know one of the challenges we have 
had historically is that there has been a second or third 
variation of the National Incident Management System, but it is 
pretty clear, at least in response to Ebola, that maybe there 
had not been enough outreach to the State and locals dealing 
with that kind of challenge at the local level. They joined 
later on.
    So I think if you invite it, you will find many willing 
participants, and I think we need to see them as a resource. 
And I am going back to my experience as Secretary of Homeland 
Security. You cannot secure the country as strong as we are and 
as big as our budgets are, the number of programs we have, you 
cannot do it from inside D.C.
    Senator Ernst. Exactly.
    Governor Ridge. You better look at the Governors and the 
mayors and the public health people as partners, not as ``we 
will get to you later.'' No, no, no. You get to them now. And I 
think they will respond very favorably.
    Senator Ernst. I do think that is a great point, and I 
would love to see that level of cooperation amongst all of our 
governmental officials and those that are responding to the 
crises.
    Of course, Senator Carper, we have the avian influenza that 
hit Iowa very hard, about 48 million birds or so that were 
lost. Two-thirds of those birds that were lost were from Iowa. 
So it hit very hard, and we really needed to see multiple 
levels of coordination.
    Governor Ridge. To that point, if I might, there is one 
recommendation we have not brought up. The Senator alluded to 
it. We do not have a national animal disease surveillance 
database.
    Senator Ernst. Right.
    Governor Ridge. We do not.
    Senator Ernst. Right. Something very basic.
    Governor Ridge. We have seen--particularly if you believe, 
as the scientists say, that 99.9 percent of those pathogens 
that ultimately affect humans come out of--their etiology is 
in--animals. So why don't we complement what we know about 
human disease with animal disease? Because I suspect people a 
heck of a lot smarter than I am, which is a ton of them, might 
be able to see the connection and even anticipate some 
problems.
    Senator Ernst. I think this is a great recommendation.
    Senator Lieberman. So you want to know if there is an 
infectious disease epidemic beginning to spread in the country. 
You want to know if there is evidence of a biological attack, 
which, of course, is not visible until people start to show the 
symptoms of it. And this will happen always at the State and 
local level. So for that kind of timely warning to be able to 
deal with the kind of crisis before it spreads, you have to 
have State and local people involved.
    I will say that there are some States--I do not know the 
number--that already have the kind of registry or database on a 
real-time basis of animal disease that we are recommending for 
the Federal Government. So, some of these States are ahead of 
us, for the same reason that we want to do this nationally, 
because they want to see something happening before it begins 
to spread to other animals and our other populations of 
animals, of the same animal or to people.
    Senator Ernst. Yes, well, thank you, gentlemen. I 
appreciate your efforts on this project, and hopefully we can 
see some of these recommendations into fruition. So thank you.
    Senator Lieberman. Thank you.
    Governor Ridge. Thank you, Senator.
    Senator Ernst. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you 
both for your work on this effort. I think it is something that 
I think gets ignored, to our peril, and having such high level 
analysis and bipartisan analysis, I think, is hugely helpful. 
With that said, I recently participated in an hour-long 
discussion with the head of the World Bank, Dr. Kim, who I do 
not know if you are familiar with him, but he is basically a 
prominent infectious disease physician. He also brings some 
interesting kind of geopolitical understanding to that role.
    When asked what he thought was the greatest economic 
vulnerability in the world, he said pandemic. And I think we 
sometimes just focus on health, but we do not realize that the 
economic implications of a pandemic will be absolutely 
devastating, especially in the developing world. And we asked 
him a series of questions about where he saw the next outbreak, 
what the next kind of cutting edge concern was that he had. He 
talked about flu and he talked about a number of other things.
    And I think it is interesting because as we prepare for our 
national defense, we cannot do this without preparing for an 
international defense, whether it is, in fact, providing food 
security in areas where people basically have had their 
economies shut down, or whether it is--so that people stay in 
place, that we do not see a migration, we do not see continuing 
spread of infectious disease, and then also, taking a look at 
preparedness, not just prevention, but preparedness.
    And so I am wondering, in the work that you did, as you 
looked at the scenarios, you looked at the potential issues 
that could come up, whether you spent any time kind of saying, 
These are the five likely next things beyond Ebola that could 
happen, let us run the scenario on how that happens, because we 
know most of these pandemics, most of these concerns actually 
originate in the developing world.
    And I do not care which one of you take on that question, 
but I am curious about how we reach beyond the work that you 
have done to get a world prepared for a pandemic.
    Senator Lieberman. That is a great question. So 
incidentally, I want to just sort of put an exclamation point, 
Senator Heitkamp, after your first point, which is that this is 
a threat on the bioterrorist side of it that is really under-
appreciated by the population, in part, because, Thank God, 
much to our surprise since the anthrax attacks right here on 
Capitol Hill in 2011, we have not had a biological attack, 
which everybody--not everybody--but most experts would have 
guessed at that point that would have happened. So it seems a 
little bit distant.
    However, although people do not want to live every day with 
this fear, the reaction that I saw to the Ebola crisis last 
year was really panic. So I think people are fearful, at least 
when it begins to happen, of the threat of a pandemic outbreak. 
I am struck by what you said Dr. Kim said and he is probably 
right. I mean, some 
people--there are other examples, but really, it is a threat in 
terms of dislocating.
    So I do not know that we listed, in terms of probabilities, 
what is next. There are some things going on now--sorry that 
Senator Carper is not here because I have learned about a 
disease moving to the United States called chikungunya. It has 
nothing to do with chicken. Is it originally an African word? I 
think so. Yes. But meaning something entirely different, but it 
threatens us now. We are not really ready for it.
    So that is one. It is beginning to be seen in the southern 
part of our country, particularly around Florida. So you want 
to?
    Governor Ridge. I do. I do have the benefit--well, the good 
Senator who was responding to your question had the benefit of 
taking a look at my recommendations, and I think if you will 
look at 7(c) and 33, I mean, I think this demonstrates the 
extent to which this extraordinary group of Americans looked 
across the board at as wide a range of issues it could possibly 
cover.
    But we do think that it is important, in 7(c) if you have 
it there, prioritize emerging and re-emerging infectious 
diseases, where we ask the Secretary of Health and Human 
Services, in coordination with Ag. and Defense, to prioritize 
these emerging infectious diseases. And then we turn quickly--
and there is more to that--then you turn to Recommendation 33 
and this is probably more to your point, Senator.
    Somebody needs to provide international leadership on this 
issue. The United States of America seems to be the country 
that should do so, and we think we ought to build, with our 
friends in the global community, perhaps through the State 
Department, whoever, a functional and agile global public 
health response apparatus to include the convening of human and 
animal health leaders from around the world to help start to 
set some of these priorities.
    You also see it as an adjunct to this, we think the 
intelligence community (IC), even within the United States, 
does not pay enough attention to this. Probably this has a lot 
to do with the fact that it is, one is probably resources, and 
two it is important, but it is not that important for us to be 
really paying a lot of attention to this. And I think if you 
can have a global database.
    If you can convene annual leaders, particularly in these 
countries, the emerging countries, you can get that kind of 
collaboration. To your point, America provides a leadership, 
but given the globalization of these pandemics, we are all 
potentially affected.
    Senator Heitkamp. Just as you have looked for a home, where 
is the point, the immediate point of accountability, which is 
the addressing of this device present? And the immediate point 
of accountability to help prepare, but also to orchestrate and 
to have the clout to effectuate a response, we do not have that 
on an international level.
    And that lack of leadership on the international level, I 
think, makes us much--we can do all these things that you are 
suggesting, but until we actually build from these efforts, 
take these same ideas and build out in a global sense, we will 
be only as secure as one border crossing.
    And so I think it is critically important that this work 
not stop at this point where we are just looking at what is 
happening within our borders, that we heed his warning and heed 
the warning of a lot of people who deal with infectious 
diseases, especially as it relates to flu and the eventual 
antibiotic resistant kinds of diseases that we anticipate we 
are breeding, that we actually have a global response and we 
have a point of accountability in global response.
    And I think that is trickier because as we know--there is a 
cop on the beat in the United States of America because we are 
a country that is rule of law--there is no one global cop on 
the beat. And if we do not recognize that, we really threaten 
our security, I think.
    Senator Lieberman. That is an excellent point. The obvious 
candidate internationally to do that is the World Health 
Organization (WHO), but it does not have the rule of law 
authority that the U.S. Government has here. As I was listening 
to you, in some sense, we thought about protecting the people 
of America from infectious disease pandemics that are coming 
either by birds or animals or people from elsewhere in the 
world.
    I think we have assumed that--we have not assumed help from 
overseas. We have sort of assumed--we have to be ready to deal 
with it here and how do we deal with it here. In the 33d, the 
last recommendation that Tom referred to, we do ask the 
Secretary of State to convene a meeting of global experts in 
animal and human health to talk about the interaction, also 
what could be done globally to stop the outbreaks.
    The truth is, there was some effective work done on Ebola 
in Africa, even though 6,000 people died. But when it started, 
just listening to the news, it sounded like it could be much 
worse. So Dr. Kim actually is a great person to lead this 
because this is his field and I hope he will.
    Senator Heitkamp. I am sure he would be glad that you 
volunteered him, Senator.
    Governor Ridge. It is one more reason, though, I think to 
have the Vice President involved. If the Vice President shows 
up arm-in-arm with the Secretary of State, you are speaking 
with the authority of the President of the United States, and 
you want to convene at the highest level, you are going to get 
there.
    The other advantage, I think, of America being much more 
aggressive externally is that if we come up with these medical 
countermeasures available to the world, I think that is an 
extension of our value system that is every bit as important as 
any other thing we do. And finally, with your very appropriate 
comments with regard to identifying the threats and emerging 
diseases in these countries, I always view our borders as the 
last line of defense, because we know the threat is out there, 
so we use the military and everybody else to try to deal with 
terrorism before it brings, the horror to our shores.
    We need to take the same mind set and say, ``Look, no 
matter what we do here to detect and prevent and prepare, we 
are going to have to respond, to recovery but we just cannot be 
thinking of ourselves internally. The threat is global and in 
many areas in the emerging countries, so we have to pay a lot 
more attention than we ever have in the past.
    Senator Heitkamp. I do not think there is any doubt about 
it.
    Senator Lieberman. Thank you.
    Chairman Johnson. Thank you, Senator Heitkamp. As long as 
we are talking globally, and Senator Lieberman, you mentioned 
the World Health Organization, I think it is widely recognized 
that with Ebola outbreak, the World Health Organization did not 
exactly respond the way the world would have liked. Do you 
believe that is the organization where this global database and 
this response really should emanate from, or do you think it is 
just not a reformable organization and we have to look to 
something else?
    Senator Lieberman. Right. So we did not really dig into 
that deeply. I mean, I had the same impression that you did, 
that the WHO did not respond as well or as quickly as we would 
have liked. I do not know what the alternatives are unless 
people acted through the U.N. and created some separate entity. 
But I think we have just got to try to make it better and to 
understand. I do not know if you can think of anything else 
globally.
    Governor Ridge. No. I mean, the bottom line is that the 
world is paying a lot closer attention to cyber threats, a lot 
closer attention to the threat of terrorism, the threat of 
nuclear proliferation. But globally, the threat is under-
appreciated and it will take strong leadership. I mean, we want 
America to get back engaged. We do not normally show up. They 
meet every couple of years on the treaty with regard to bio 
weapons, and while we know that some of the participants have 
signed the treaty are building the dual capacity, we still 
ought to show a face there.
    We have to be much more aggressive with regard to the World 
Trade Organization (WTO). So I cannot think of another 
organization. We do not have time to create a new one. We just 
ought to extract as much information and get as much benefit, 
because I do think the organization may not be the rallying 
point, but it could be used as a bully pulpit for us and we 
have to convene leaders from these countries that are really 
concerned. And we can do that independently of WTO, that is for 
sure.
    Chairman Johnson. Well, you repeated the phrase, failure of 
imagination. I think it is denial of reality. Some of these 
things are just so horrific to even think about, that will 
never happen. You have to recognize that yes, it might. Did you 
do any work or did you take a look at the possibility of 
stockpiling medicines? You mentioned anthrax. I know we did not 
have enough Cipro at the time. Where are we in terms of 
potentially stockpiling preventative medicines or cures?
    Governor Ridge. Well, we did take a look and made some 
recommendations with regard to the national stockpile. One, we 
do not have that much stockpile. Again, our medical 
countermeasures are really in the embryonic stage right now. We 
have not even identified those potential pathogens with which 
we think there needs to be innovation and an antidote 
developed.
    We also recognize that even if you have the right materials 
stockpiled, we still have not figured out a way to distribute 
it, mass population. We have tried the Postal Service. We have 
tried a couple of others. There is some learning there. So 
again, it is part of the response and recovery recommendations 
we make to revisit that issue and pay a lot more attention to 
it than we have in the past.
    Senator Lieberman. Mr. Chairman, I do want to mention--it 
is not directly responsive, but it is related--that it happens 
that Senator Ayotte and Senator Booker have introduced a bill 
for the Department of Homeland Security to reach into its 
stockpile of anthrax vaccine and provide it for first 
responders across the country. Now, part of this is because 
parts of the stockpile are coming to the point----
    Chairman Johnson. Getting old.
    Senator Lieberman. They are getting old, right. So we might 
as well use them for that purpose. But we are not--I mean, one 
of the major recommendations that comes out of this is that we 
still have not figured out how to leverage the ingenuity and 
innovation of the pharmaceutical sector of our economy to get 
involved in developing medical countermeasures to diseases that 
in some sense are hypothetical.
    We do not know that it is going to happen. And we have 
tried different ways to incentivize businesses to do that. 
Biomedical Advanced Research and Development Authority (BARDA) 
has been the instrument of that and I think we have a feeling 
that we ought to, as much as we respect the National Institutes 
of Health (NIH)--now I am going to join you in getting in 
trouble.
    Governor Ridge. We respect them, but we also think that 
there is a disproportionate emphasis placed on basic research 
and not enough with regard to applied.
    Senator Lieberman. Yes.
    Governor Ridge. You take a look at what NIH gets and Dr. 
Fauci is an incredible public servant, NIH has existed for over 
100 years, but its mission, original mission has been expanded 
across. They are not coordinating activity within the Federal 
Government. It is much too big for NIH.
    So again, when we devised this architecture and approach, 
we were not looking to spend a lot of new money. We think just 
reprogramming some of it, and that is a classic example and I 
think, Senator, I do not mean to interrupt him, but I think we 
felt that there is not enough innovation in the marketplace. 
And the market will not really respond, first of all, just to 
even get access to some of the dollars for research.
    The process is just constipated. I mean, it is like 
paperwork and paperwork and paperwork and who knows if you are 
going to get at the outcome. We want to take the contracting 
authority from HHS and put it over in BARDA. But I would like 
to think that as part of the building of a new strategy, you 
would sit down, not only with the big pharmas, but sit down 
with a small company. They are more inclined to be focusing on 
one antidote, one or two vaccines and what do they need to have 
an incentive. The incentive just cannot be the market because 
there is no market.
    Chairman Johnson. Right.
    Governor Ridge. And you hope there will never be a market 
for it. So what is it that we have to do to encourage you to 
expend the dollars necessary to build that countermeasure? Why 
do you not tell them the story about when you were with your 
colleague, you wanted to extend the patent life in order to--
great story.
    Senator Lieberman. Oh, yes. Thank you. So a few months 
after 9/11, and the anthrax attacks really after 9/11, I do not 
know if Chuck Ludlum is here. He worked with me in my office. 
And we were talking about the problem that there were not 
medical--pharmaceutical countermeasures and how do we create a 
market incentive where there is no natural market incentive for 
pharmaceutical companies to devote research to this.
    So he came up with the idea--of course, at the time I took 
credit for it. He came up with the idea that we should create a 
process where a company develops a proposal for a medical 
countermeasure. They go to HHS, stating this simplistically, 
and if they cross the threshold of plausibility, then they are 
put on a track, and if they do develop an effective medical 
countermeasure, then their reward is--because they still do not 
know whether there is a market--that they can then take one of 
their drugs, presumably one of the more popular drugs, and 
extend the patent life, I think we said for a year, maybe 2 
years, but a year.
    So this seemed like a very logical idea, to create an 
incentive for pharmaceutical companies to get into this area 
where there is no guaranteed market.
    Chairman Johnson. So again, that is for potentially 
development, but again, stockpiling. About the only entity, the 
only market would be for government to start stockpiling 
something that expires.
    Senator Lieberman. Just keep buying it, that is right.
    Chairman Johnson. That is just a natural contract.
    Senator Lieberman. So what happened was that this brilliant 
idea of ours did not seem so brilliant to the generic drug 
industry which did not want the patent life extended.
    Chairman Johnson. They are always interested.
    Senator Lieberman. And they came over the Hill like a 
cavalry and that was the end of that idea.
    Chairman Johnson. Well, good try.
    Chairman Johnson. Nice try.
    Governor Ridge. Maybe, perhaps, one of these days with 
science and technology moving as quickly as it is, we will be a 
lot closer to vaccines on demand if somewhere, not necessarily 
in the government, but out there in the private sector, we have 
this collaborative research capability based on priorities, 
based on information, based on intelligence. But for the time 
being, we are just going to have to go to the stockpile mode, 
but I think in years ahead, we might be able to come up with a 
better way than that to maybe incentivize.
    Chairman Johnson. Well, I will think liability protection 
would be somewhat key to that as well. Senator Carper.
    Senator Carper. Just a reminder. We have a facility located 
close to the University of Delaware where we have a number of 
bioscience companies and large, not so large, but mid-sized and 
small. One of them actually works on developing plant-based 
vaccines, not using eggs, but using, among other things, 
tobacco plants and being able to create vaccines more quickly 
and a variety of them.
    When I first visited them years ago, I wondered, this might 
come in handy someday, and they have done pretty well to 
advance their strategy. So I think I am going to pay them 
another visit just based on what we are talking about here. I 
would ask you a question and I just want you to answer it 
shortly.
    We all have a chance in what we have done and what you all 
have done is visit schools. I love to visit schools from grade 
schools all the way up through college. But sometimes the kids 
ask me for advice or I have just given them advice. One time a 
kid said he was trying to decide what to do with his life and 
he wanted my advice. He was going to do this, he was going to 
do that. And I said to him, Aim high, aim high, there is more 
room up there. Aim high.
    And the idea of asking the Vice President or encouraging 
the President to direct the Vice President to take the lead on 
this, that is aiming high. What if neither the President nor 
the Vice President have any interest in the Vice President 
doing this? What would be Plan B?
    Senator Lieberman. Well, I hate to use the term--maybe I 
will not use the term--Plan B would be somebody like the czar, 
I mean, somebody in the White House so that they had the 
implicit authority of the Presidency to coordinate. Again, I 
think the conclusion we reach is you cannot take somebody in 
one of the departments and put them over everybody else in the 
various departments.
    Senator Carper. If I could interrupt just for a moment? The 
legislation that we passed last year, Dr. Coburn and I 
authored, co-authored it, on trying to figure out on the 
Federal Information Security Management Act (FISMA), the 
question of what is the appropriate role for OMB and the 
Department of Homeland Security with respect to Federal 
information management.
    And we included there language that basically said, DHS has 
the authority to direct agencies. We had a term for it. What 
was the term? Binding operational directives, binding 
operational directives, to really tell the agencies what they 
had to do. So there is a precedent for that.
    Senator Lieberman. So I mentioned before that if you had to 
choose one department, it would be the Department of Homeland 
Security because this is a homeland security threat. Some of 
this, incidentally, also implicates a Federal Emergency 
Management Agency (FEMA) responsibility because of emergency 
reaction to, let us say, a bioterrorist attack or a pandemic 
disease outbreak. But I think it is still hard in this kind of 
case to ask one of the departments to assume a superior role to 
the others.
    Senator Carper. All right.
    Senator Lieberman. Again, I guess the hierarchy for us 
would be--we have not really explored this--Vice President, 
somebody in the National Security Council so you have the 
implicit--although Governor Ridge, really explained why you can 
only go so far. There he was in the White House, have a meeting 
in the Roosevelt Room that impressed people, but he did not 
have that authority that the Vice President has.
    Governor Ridge. Maybe one example my friend rated. I 
remember--no reason for you to know this, but long before we 
passed the Department of Homeland Security, months and months 
before that, I convened the President's Homeland Security 
Group, probably a half to two-thirds of the Cabinet, because 
there had been multiple studies, some of them mandated by 
Congress, a lot of the think tanks, in a 21st Century world, 
building a border-centric agency. It makes a lot of sense. Kind 
of monitor the goods and people it served coming across the 
border. Fine.
    And I sent out a memo and announced that I wanted to--I 
felt we ought to--collaborate, communicate, hold hands, sing 
Kumbaya, I want part of your agency, I do not want part of your 
agency, I would like some money here and I would like to see 
some money there.
    And the answer I got from everybody except Paul O'Neill 
was, ``No, we just need to communicate better, we need to 
coordinate better.'' Nobody wanted to give up turf, nobody. 
Fast forward 4 or 5 months. Roosevelt Room, same people are in 
the room, one additional person, happens to be the President of 
the United States. We are sending a piece of legislation up to 
the Hill tomorrow, whenever, we are going to create a 
Department of Homeland Security.
    I know you are going to be shocked. Unanimous support for 
that initiative. Why? Because the President said, this is what 
we are going to do. That is why we feel so strongly that it is 
imperative for the President, hopefully, and a willing Vice 
President to volunteer. It is everything I would think a Vice 
President would want to do. You have domestic and 
international, you have Federal, State, and local, you interact 
with the corporate community. You have to lead an effort 
globally and extend America's influence in a very positive way.
    I would like to think that the next President, regardless 
of what side of the aisle they come from, will be persuasive 
enough and the Vice President would be willing enough, to take 
it on. Because once it is embedded, I think you have the 
infrastructure you need to really do something about this 
threat.
    Senator Carper. OK. Thank you. One of the more noteworthy 
recommendations coming from the panel is the suggestion of 
unifying the bio threats strategies both for animals and for 
human beings. I think you call the approach One Health?
    Governor Ridge. One Health.
    Senator Lieberman. One Health.
    Senator Carper. That would allow government to better track 
and combat animal-based disease outbreaks. Two questions. One, 
how do you envision this strategy working amongst the different 
agencies responsible for animal and for human health programs? 
And two, what programs do you think should be prioritized? Two 
questions. How do you envision this strategy working amongst 
the different agencies responsible for animal and for human 
health programs and which programs do you think should be 
prioritized?
    Governor Ridge. Let me take a shot at that first. First of 
all, I think the recommendation is really to have us think 
about the connectivity among the three elements, environment, 
animals, and humans, because right now, like everything else, 
it is all siloed. So as you are building out this national 
platform, I think, to the extent that some of these agencies 
interact with all three, we would want to assimilate the 
information, have the analysis done with that in mind. I do not 
have any specific recommendations as to how they prioritize in 
it, inside of it, but it is just a change in mentality.
    Right now we are not paying any attention to animal health. 
There is very little consideration internally within any of 
these agencies or appreciation that most of your problems 
emanate in animals and in wildlife. But we do not really view 
that as part of the intellectual infrastructure around which we 
build a platform of medical countermeasures or even gather 
intelligence, let alone response and recovery mechanisms. So I 
think it has much to do with changing an approach toward any 
particular initiative.
    Senator Carper. Senator Lieberman.
    Senator Lieberman. No, I think that is the main point, to 
recognize the divisions between human health and animal health 
or human disease and animal disease are artificial. So you have 
to deal with them together. I just want to talk about what we 
are talking about here. We are asking the Vice President to 
direct the National Security Council to review all strategic 
biodefense documents. This is an example, to answer your 
question, to ensure that animal health and environmental health 
agencies are identified and assign responsibilities and that 
their activities are fully aligned.
    And then, Mr. Chairman, two down in terms of action items, 
this is a response to an earlier question you asked which we 
did not have an answer to because there is not an answer right 
now, prioritize emerging and re-emerging infectious diseases. 
And to do that by combining the efforts of the Secretary of 
HHS, the Secretary of Agriculture, and interestingly and 
relevantly, the Secretary of Defense.
    I think this is something that people are not adequately 
aware of, but more to the point, it is not the awareness which 
is reality. It is not being reflected in a way our government 
is acting and, therefore, we are both wasting resources, but we 
are also not preparing ourselves adequately to deal with 
threats to animals and humans.
    Chairman Johnson. Thank you. I know I stole this from 
Chairman Carper, he might have stolen this from you.
    Senator Lieberman. Yes.
    Chairman Johnson. Another tradition of this Committee is 
basically to give our witnesses kind of one last shot, so if 
there is something you have not mentioned if you want to kind 
of summarize your points, happy to give you an opportunity 
before we close out the hearing. We will start with you, 
Governor Ridge.
    Governor Ridge. No, I just think that we are looking for 
champions, Senator. What we thought, what we have analyzed, the 
go-ahead plan, it is all here. We know that you and Senator 
Carper are going to take it seriously. We hope that through 
your advocacy and that of others within this body and over in 
the House we can find some champions to affect this.
    This is a real threat. We cannot get ahead of it because it 
exists and we just need folks, hopefully, to take this 
blueprint seriously, and act on it. I do not want this to be 
the fifth report that ends up on the shelf gathering dust by 
the time we acted on it. We thank you. This is the first public 
action and it is in the right Committee of jurisdiction, 
because I think it may be a long time since I looked at your 
jurisdictional aperture, but I think you could call it----
    Chairman Johnson. It is broad.
    Governor Ridge. I think you can call them all in if you 
want. I mean, you could have SECDEF, HHS, you can have them all 
here and say, The Vice President's plan said you ought to do 
this and you are not doing that. Why not?
    Chairman Johnson. You should take comfort in the fact that 
I was really focusing on the hearings you were recommending, so 
you probably found your champions. Senator Lieberman.
    Senator Lieberman. Thanks for the opportunity, Mr. 
Chairman. So with your permission, I am going to tell a story 
that is only remotely relevant, but he inspired it with that 
story.
    Chairman Johnson. Senator Carper does that all the time.
    Senator Lieberman. I know.
    Senator Carper. That was what I learned from Joe Lieberman.
    Chairman Johnson. There is nothing wrong with Tom in 
inspiring me. It is an old technique.
    Senator Lieberman. So Governor Ridge told this great story 
about the planning at the White House for the proposal for a 
new Department of Homeland Security and how the Cabinet did not 
know about it. So we had our bill on the floor for the 
Department of Homeland--or out, anyway.
    I have a specific recollection, after President Bush put 
out the proposal that you have just described for the 
Department of Homeland Security, a day or two later the late, 
great Senator Robert C. Byrd took the floor and he said, 
``Where did this proposal come from?-'' He said, ``I have been 
informed that not even members of President Bush's Cabinet knew 
it was coming. There was some small group of people in a room, 
a closed room in the White House somewhere.''
    And I can hear Senator Byrd on the floor saying, ``Who was 
there? Was Hamilton there? Was Madison there? Was Washington 
there? Was Jefferson there? I realize now I am at the table 
with Thomas Jefferson. He was there. OK.'' So thank you for 
allowing me that freedom of expression, old war stories. We 
miss Senator Byrd, really. He was something. God bless him.
    So I just echo what Tom said. We need champions. And I will 
say this. We both approached this, the request to co-chair this 
operation, with the sort of skepticism or questioning that one 
has in this life after public office, which is, ``Is this 
really going to matter? Is it worth my time? Are we going to do 
anything? '' But we were worried enough about the problem that 
we took it on. And I must say, for my part, part of it was 
frankly to work with Tom Ridge again.
    But at the end of this, now the day that we issued our 
report, I think we come away feeling this is a real threat to 
our 
country, not enough is being done about it, and it would be 
irresponsible--we are asking you to be champions, it would be 
irresponsible of us to leave the field, drop the report and go 
back to whatever we are doing.
    So we are going to try to find a way to keep this panel 
going, including the staff without which we would not have done 
anything of what we have done so far. And I want you to know 
that insofar as this Committee or you individually become 
champions of the report, we want to be in a position, and we 
feel reasonably confident we will be, to back you up, to 
support you because we think it is that important. Again, thank 
you very much for your time and your interest.
    Chairman Johnson. Senator Carper.
    Senator Carper. There had been a former Governor of 
Delaware named Russell Peterson and a former President of the 
University of Delaware named Art Trabant who came to see me, I 
think in 1993, 1994, my first year as Governor. And they had a 
proposal that they delivered to me on how to transform the area 
along the industrial wasteland along the Christina River where 
the train station is in Wilmington right along I-95 where a 
baseball stadium is.
    And they had the incredible vision of what we could do with 
that land where 10,000 people once worked to build ships that 
helped win World War II. The war was over, decayed, industrial 
wasteland followed in its wake. And they represented a 
wonderful vision and I said to them at the meeting, I said, Who 
is going to do this? Who is going to lead this effort?
    And former Governor Peterson, who was by then about 80, he 
said to me, he said, You are. And I said, Why me? And he said, 
Because you are a Governor and that is what Governors do. And 
that is what we have done and it is just wonderful. Sometime I 
hope you can come and visit. It is on the riverfront. I think 
Governor Ridge has maybe been there once or twice.
    But I am really encouraged by what you said. If the 
Chairman and I are as persuasive as we are, go meet with the 
Vice President next week and say, We had a hearing, this is a 
great idea, tell him who presented it to us and all, I am not 
sure we are going to be as effective as we might be if we did 
not do it with you, maybe the four of us to sit down with the 
Vice President and say, This is something we think is important 
and we just think it is something you ought to consider adding 
in your last 15--14 months, really, as Vice President to your 
portfolio. What do you think?
    Senator Lieberman. Well, that would be great. We would be 
there, sure.
    Senator Carper. Good. Thank you.
    Chairman Johnson. I would be happy to participate. By the 
way, that story was almost related.
    Senator Carper. I am getting better. He got a better 
overtime, why should I not?
    Chairman Johnson. Let us face it. The Blue Ribbon Panel 
found two fabulous champions, Governor Ridge, Senator 
Lieberman, you are true patriots. You served your Nation, you 
are continuing to serve it. We want to work with you. I look at 
this as a great blueprint. Like I said, take comfort from the 
fact that I have already gone down that list of hearings. 
Again, a blueprint. We are going to want to follow that, we 
went to work with you on this.
    These threats are real. One thing I have noticed about 
Washington D.C. is there is an awful lot of reality denying 
going on around here and I am not into reality denying. If we 
are going to solve problems, the first step is you have to 
acknowledge--in reality you have to admit you have that 
problem. You guys certainly together put together this Blue 
Ribbon Panel that describes a reality that we have to face. So 
I really do appreciate it.
    I think the technique we have been trying to follow, and 
this is what happened with cyber security, too, it is amazing 
what you can accomplish when you really do not care who gets 
credit for it. We had the CISA bill out of the Intel Committee. 
We could have claimed jurisdiction; we did not. We said that is 
a good bill. We worked together on the Federal Cyber Security 
Enhancement Act. We got that put in the manager's amendment.
    So when you concentrate on the areas of agreement that 
unify us and unite us, you can actually accomplish something, 
rather than trying to exploit our divisions. So this surely 
should be an area that unifies us because we agree this is a 
problem that needs to be addressed. We want to work with you 
over the coming months, possibly years, to really address this 
very real threat.
    So again, thank you for your service and you can be assured 
that we will work with you in the future on this.
    Senator Lieberman. That is great.
    Governor Ridge. Thank you.
    Chairman Johnson. With that, the hearing record will remain 
open for another 15 days until November 12 5 p.m. for the 
submission of statements and questions for the record. This 
hearing is adjourned.
    [Whereupon, the Committee was adjourned at 4:12 p.m.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
